       Office of Inspector General
       for the Millennium Challenge Corporation



January 12, 2011


Mr. Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s Audit Report No. M-000-11-001-S
on the Review of the Millennium Challenge Corporation’s Approach to Addressing and
Deterring Trafficking in Persons. In finalizing the report, we considered your written
comments to our draft report and included those comments in their entirety in appendix II
of this report.

The report contains one recommendation for corrective action. We consider that a
management decision has been reached on the recommendation. Final action will not
be reached until MCC provides additional documentation.

I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,


     /s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H. Street N.W. Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY
Section 232, “Investigation by the Inspectors General,” of the William Wilberforce
Trafficking Victims Protections Reauthorization Act of 2008 (Public Law 110-457), dated
January 3, 2008, requires that the Inspectors General of the U.S. Department of
Defense, U.S. Department of State, and U.S. Agency for International Development
(USAID) investigate a sample of contracts under which there is a heightened risk that a
contractor may knowingly or unknowingly engage in acts related to trafficking in persons
(TIP). The statute requires a report summarizing the findings from the previous year,
and directs those Inspectors General to submit a report on the findings to Congress by
January 15, 2011. The Millennium Challenge Corporation (MCC), Office of Inspector
General (OIG), conducted this review to provide information for the USAID/Inspector
General’s report to Congress.

The U.S. Department of State defines TIP as “when one person obtains or holds another
person in compelled service.” Compelled service includes such terms as involuntary
servitude, slavery, debt bondage, and forced labor. The majority of human trafficking
takes the form of forced labor, which includes forced child labor. Sex trafficking
comprises a smaller but still significant portion of overall human trafficking. The U.S.
Department of State issues its TIP Report annually and ranks countries according to four
tiers: Tier 1, Tier 2, Tier 2 Watch List, and Tier 3. The best ranking is Tier 1 and the
worst is Tier 3, which means the country is not fully complying with the minimum
standards of the Trafficking Victims Protection Act of 2000 and is not making significant
efforts to do so.

The objective of this review was to determine whether MCC included provisions in
selected infrastructure contracts that address TIP.

MCC included TIP provisions in selected large works infrastructure contracts reviewed by
the OIG. However, one of two small works contracts reviewed included only language
prohibiting child labor, and did not address other forms of TIP. MCC included TIP
provisions in its guidance for the procurement of large works contracts 1 (page 3), but did
not include specific TIP provisions in its guidance for the procurement of small works
contracts 2 (page 4).




1
  MCC’s guidance on standard bidding documents defines large works as construction contracts
having a value of $10 million or greater.
2
  MCC’s guidance on standard bidding documents defines small works as construction contracts
having a value of $1 million to $10 million.

                                             2
The OIG reviewed seven contracts and one cooperative agreement, as shown below.

                                                                                    Amount
                    Contractor                               Date Signed            Rounded
                                                                                   ($ Million)
                                       Burkina Faso
Plan International USA, Incorporated                          September 2009              22.5
                                        Lesotho
Sanyati Civil Engineering and Construction
Proprietary Limited                                               August 2010              9.0
Lesotho Steel Products Proprietary Limited                        August 2010             13.1
Lesotho Steel Products Proprietary Limited                      February 2010              1.4
EDRO Construction                                                October 2010              0.9
                                        Tanzania
Sinohydro Corporation Limited                                  December 2009              53.7
AARSLEFF-BAM International Joint Venture                           April 2010             97.1
                                        Vanuatu
Downer EDI Works Limited                                             May 2008             54.0
Total                                                                                    251.7

The OIG did not observe any indications of TIP during site visits of selected MCC-funded
infrastructure projects in Burkina Faso, Lesotho, Tanzania, and Vanuatu in fiscal year
(FY) 2010. The Investigations Office of the USAID Inspector General and the U.S.
Department of State’s Office to Monitor and Combat Trafficking in Persons (G/TIP) did
not receive allegations of TIP in any of MCC’s compact countries.

Detailed results of this review appear in the following section. The scope and
methodology are included in appendix I. Appendix II presents MCC’s comments.

As a result of our review, we recommended that MCC revise its guidance on Standard
Bidding Documents: Procurement of Small Works to include specific TIP provisions.
MCC agreed with the OIG’s recommendation, and a management decision has been
reached.

REVIEW RESULTS
MCC infrastructure contracts contained TIP provisions – MCC included TIP
provisions in selected contracts and bidding documents reviewed for three countries:
Lesotho, Tanzania, and Vanuatu. The cooperative agreement between USAID and Plan
International USA, Incorporated, for schools constructed for MCC’s compact in Burkina
Faso also contained TIP provisions. 3

    •   For the Lesotho compact, OIG reviewed two large works contracts, one small
        works contract, and three bidding documents that supported the compact. These
        documents contained TIP provisions. However, a second small works contract

3
 A cooperative agreement is an agreement in which the Federal Government provides funding or
a thing of value authorized by public statute, and the Government plays a substantial role. MCC
used USAID to implement its program in Burkina Faso.

                                              3
       did not contain similar provisions as identified in the aforementioned contracts
       and bidding documents. The TIP provisions required that the contractor develop
       a TIP risk management plan. The TIP provisions also described MCC’s steps to
       minimize the risks of TIP in MCC-funded activities. (Additional information is
       provided in the following section.)

   •   For the Tanzania and Vanuatu compacts, the OIG reviewed three large works
       contracts that supported the compacts. These contracts contained clauses that
       prohibited child labor, sex trafficking, and prostitution.

   •   For the Burkina Faso compact, OIG reviewed a cooperative agreement between
       USAID and a non-governmental organization that supported the compact. The
       agreement contained a clause stating that the U.S. Government is opposed to
       prostitution and related activities that contribute to TIP.

MCC guidance on small works procurements did not contain TIP provisions –
MCC did not contain TIP provisions in a small works contract signed in February 2010
for the Lesotho compact. This February 2010 small works contract included only a
subclause that prohibited the use of child labor but did not address other forms of TIP.

However, another small works contract signed in October 2010 for the Lesotho compact
contained specific TIP provisions.
An MCC procurement official stated that while MCC was working on the bidding
documents for the October contract, MCC’s Environmental and Social Assessment
specialists recommended that the TIP provisions be strengthened. MCC’s country team
for Lesotho decided to include more specific TIP provisions in the bidding documents
used to procure contracts.

Lesotho’s bidding documents provide a section on TIP stating that the contractor will be
responsible for contributing to the management of the risks related to TIP as part of its
works, including the preparation and implementation of a TIP risk management plan.
According to an MCC procurement official, MCC then took action to incorporate the TIP
provisions into Lesotho’s bidding documents beginning in April 2010. However, these
specific TIP provisions are not included in MCC’s guidance on Standard Bidding
Documents: Procurement of Small Works. The guidance only states that contractors
should comply with “all applicable U.S. laws, regulations, executive orders or policies.” If
MCC does not emphasize TIP in its guidance on small works contracts, there is a risk
that the contractor will not comply with TIP provisions.

   Recommendation 1. We recommend that the Millennium Challenge
   Corporation’s Vice President of Compact Operations revise the guidance on
   Standard Bidding Documents: Procurement of Small Works to include specific
   trafficking in persons provisions.

Findings from the previous OIG report – The OIG’s previous survey of MCC’s Policies
and Procedures to Address U.S. Government Anti-Trafficking Policy (Audit Report
M-000-10-001-S, March 17, 2010) found that MCC had instituted processes to identify,
address, and guard against forced labor, child labor, and other forms of TIP. The report
also noted that MCC contracts included clauses that would allow the contracts to be
terminated if trafficking in persons occurred. According to MCC officials, its funds are
                                            4
not subject to the Trafficking Victims Protection Act of 2000, as amended, but MCC is
complying with the spirit of the legislation. The OIG recommended that MCC establish
written policies and procedures to improve its practices in addressing TIP and countries
on the Tier 2 Watch List for 2 consecutive years. MCC issued internal policy in February
2010 and posted external policy on its Web site in March 2010 that addressed its efforts
to combat TIP.

Actions MCC has taken since the previous OIG report – MCC has taken additional
actions on addressing TIP since the survey report was issued in March 2010. On
August 24, 2010, the OIG sent a letter to MCC’s Chief Executive Officer requesting a
written response describing what actions MCC planned to take on seven countries—
Guyana, Lesotho, Mali, Moldova, Nicaragua, the Philippines, and Senegal—that
received a compact or threshold agreement and were on the Tier 2 Watch List for the
second consecutive year in the U.S. Department of State’s June 2010 TIP Report.
MCC’s Chief Executive Officer responded on September 29, 2010 (see appendix III).
He stated that Nicaragua’s compact and Guyana’s threshold program will end before the
2011 TIP report, and therefore no action is necessary. He also stated that MCC had
sent letters to the Prime Minister of Moldova and to the Finance Minister of Senegal
emphasizing the importance of policy performance and addressing TIP issues, as well
as to remind partner countries of the risk of automatic downgrade to Tier 3 in 2011. As
of November 30, 2010, MCC had not sent letters to Lesotho, Mali, and the Philippines.
However, according to an MCC official, MCC plans to issue the letters in January 2011.

According to MCC officials, MCC has taken or plans to take the following actions:

   •   According to an MCC procurement official, in early January 2011, MCC plans to
       conduct major revisions to its guidance on Standard Bidding Documents:
       Procurement of Large Works, as well as to small works, design/build, and
       consulting services bidding documents. These revisions will strengthen the TIP
       requirement for all contracts awarded by any Millennium Challenge Account
       entity in the future. MCC anticipates the release of the revised standard bidding
       documents in early March 2011.

   •   In response to the U.S. Department of State downgrading the tier rankings of
       Tanzania and Mozambique in June 2010 from Tier 2 to Tier 2 Watch List, MCC
       verbally communicated with the countries via the U.S. Embassies in country and
       included input from MCC’s resident country missions.

   •   As part of its oversight of compact projects in Mozambique, MCC performed a
       special assessment of trafficking risks (completed in October 2010). MCC found
       that due diligence was undertaken during compact development and that
       increased trafficking was a potential impact associated with three road projects.
       MCC was able to direct efforts to address those findings, including providing
       funding to mitigate trafficking.

   •   MCC is currently developing operating procedures for its Social and Gender
       Assessment and other staff that will provide guidance on how to assess the TIP
       risks of specific projects proposed to MCC by the country during compact
       development. MCC expects these procedures to be issued by June 2011.


                                           5
According to a U.S. Department of State G/TIP official, MCC’s relationship with G/TIP
has improved since last year. The official also stated that MCC regularly contacts G/TIP
regarding the tier rankings of countries that MCC finds eligible for funding.




                                           6
EVALUATION OF
MANAGEMENT COMMENTS
Millennium Change Corporation (MCC) provided written comments to our draft review
report in a letter dated January 5, 2011, which is presented in appendix II. In its
response, MCC agreed with the recommendation in the draft report.

In response to Recommendation 1, MCC stated that in early January 2011, it revised its
guidance on Standard Bidding Documents: Procurement of Small Works to strengthen
trafficking in persons requirements. MCC also revised its guidance on bidding
documents for large works, design/build, goods, and consulting services. MCC
anticipates the release of the revised standard bidding documents in early March 2011.
The Office of Inspector General considers that a management decision has been
reached, but final action will not be taken until MCC provides documentation on the
revised standard bidding documents.




                                          7
                                                                                        Appendix I


SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG) conducted this review of the Millennium Challenge
Corporation’s (MCC) approach to address and deter trafficking in persons (TIP). We planned and
performed this nonaudit review to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our review objective. We also conducted this
review in accordance with Government Auditing Standards, specifically Chapter 3 and Chapter 7,
Sections 7.55 and 7.72 to 7.79. Our objective was to determine whether MCC included provisions
in selected infrastructure contracts that address TIP. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions. The scope of this review included
analyzing infrastructure contracts from May 2008 through October 2010 for judgmentally selected
contracts.
As part of the OIG’s efforts to address TIP, audit teams conducting performance audits in fiscal
year (FY) 2010 carried out tests to determine whether TIP was occurring in MCC compact
countries. Four compact countries—Burkina Faso, Lesotho, Tanzania, and Vanuatu—were
selected for review because they have infrastructure projects, which have the highest risk of TIP.
The total value of the compacts for these four countries was about $1.6 billion. We analyzed OIG
audit teams’ working papers regarding TIP audit tests during FY 2010. We reviewed seven
infrastructure contracts and one cooperative agreement in those compact countries, valued at
about $251.7 million, and reviewed three bidding documents for the Lesotho compact. We also
reported on the status of MCC countries that have received Tier 2 Watch List 4 rankings for 2
consecutive years. We conducted this review at MCC headquarters in Washington, DC, from
November 10 to December 8, 2010.

Methodology
We interviewed MCC officials in the Department of Policy and International Relations and the
Department of Compact Operations. Specifically, we interviewed MCC staff in Social and
Gender Assessment, Program Procurement Policy, and Environmental and Social Assessment.
We also interviewed staff from the Department of State’s Office to Monitor and Combat
Trafficking in Persons and contacted the Investigations Office of the U.S. Agency for
International Development’s Inspector General. We reviewed the Department of State’s TIP
Report for 2010.
To answer the review objective, review steps were established to determine the following:

    •   Whether MCC had included TIP provisions in its infrastructure contracts.
    •   Whether TIP occurred on selected MCC-funded infrastructure projects.
    •   Whether MCC was taking action against countries that did not make significant efforts to
        fully comply with minimum standards of TIP policy.
    •   Whether MCC was taking additional actions to address and deter TIP.

4
  A Tier 2 Watch List ranking means that the government does not fully comply with the minimum
standards but is making significant efforts to do so. Public Law 110-457 states that a country that
remains on the Watch List for 2 consecutive years shall be designated as a Tier 3 country and may be
subject to sanctions.



                                                 8
                                                                             Appendix II



   MANAGEMENT COMMENTS




DATE:         January 5, 2011

TO:           Mr. Alvin Brown, Assistant Inspector General
              Millennium Challenge Corporation

FROM:         Mr. Patrick Fine, Vice President /s/
              Department of Compact Operations
              Millennium Challenge Corporation


The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to
the Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium
Challenge Corporation’s Approach to Addressing and Deterring Trafficking in Persons.”

MCC’s response to the single recommendation in the draft report is detailed below.

Recommendation No. 1:           Recommendation: We recommend that the
Millennium Challenge Corporation’s Vice President of Compact Operations
revise the guidance on “Standard Bidding Documents: Procurement of Small
Works” to include specific trafficking in persons provisions.

MCC Response: In early January 2011, MCC revised its guidance on Standard Bidding
Documents: Procurement of Small Works, as well as to the large works, design/build,
goods, and consulting services bidding documents. These revisions will strengthen the
TIP requirement for all contracts awarded by any Millennium Challenge Account entity in
the future. MCC anticipates the release of the revised Standard Bidding Documents in
early March 2011.

Thank you for the opportunity to provide our comments on the draft report.




                                           9
                                                                             September 29, 2010 

Mr. Alvin Brown
Assistant Inspector General
Office of Inspector General
U.S. Agency for International Development
1401 H Street NW, Suite 770
Washington DC 20005

Dear Mr. Brown:

Thank you for your August 24th letter regarding the Millennium Challenge Corporation’s (MCC)
approach to trafficking in persons (TIP). MCC takes the issue of human trafficking very
seriously and has developed an approach that considers TIP issues as part of partner country
selection, as well as during program design and implementation. I share your concern regarding
MCC partner countries ranked Tier 2 Watch for the second consecutive year in 2010, and the
risk of automatic downgrade to Tier 3 in 2011. MCC has addressed this critical issue in a
number of ways, including coordinating closely with the Department of State, by communicating
clearly with our partner countries, and by noting how TIP issues relate to MCC’s Policy on
Suspension and Termination.

The Department of State leads the U.S. government’s efforts against TIP. MCC has a strong
working relationship with the Department of State’s Office to Monitor and Combat Trafficking
in Persons (G/TIP). Given that 2011 will be the first year that the automatic downgrades take
effect, MCC will work closely with G/TIP as it prepares the 2011 TIP report. In all MCC partner
countries ranked Tier 2 Watch in 2010, either for the first or second year, MCC resident country
directors have coordinated closely with U.S. embassy staff, and U.S. ambassadors have engaged
with country counterparts about the 2010 TIP rankings. For both Moldova and the Philippines,
MCC senior managers have raised TIP concerns with high-level counterparts during country
visits in recent months.

In 2010, of the seven countries noted in your letter, five are compact partners and ranked Tier 2
Watch for the second consecutive year—Lesotho, Mali, Moldova, Philippines, and Senegal—for
these five countries, compact implementation will be ongoing when the 2011 TIP report is
released. Nicaragua’s compact will end prior to the release of the 2011 TIP report and Guyana’s
threshold program concluded in February 2010. If these five countries make no improvements to
warrant upgrade to Tier 2, they face automatic downgrade to Tier 3 in 2011. MCC has already
sent letters to the Prime Minister of Moldova and to the Finance Minister of Senegal, and will
send letters to Lesotho, Mali, and the Philippines emphasizing the importance of policy

                                             10
Mr. Alvin Brown
September 29, 2010
Page 2

performance and addressing TIP issues, as well as to remind partner countries of the risk of
automatic downgrade to Tier 3 in 2011.

A TIP ranking of Tier 3 does not trigger automatic suspension or termination of MCC assistance.
MCC’s eligibility criteria, as well as the authority to suspend and terminate, are derived from
parameters established in the agency’s authorizing statute. Based on these authorities, MCC’s
system is considerably different from that used to assign TIP rankings. If a partner country’s TIP
ranking declines, MCC follows procedures set forth in its Policy on Suspension and Termination
to analyze what triggered the change and to determine whether the change reflects a significant
policy reversal or a pattern of actions inconsistent with MCC’s eligibility criteria. Under this
policy, if a country demonstrates a pattern of actions inconsistent with MCC’s eligibility criteria,
MCC may issue a private or public warning, or may move to partially or fully suspend or
terminate that country’s eligibility for compact or threshold program development and
implementation.

Thank you for the opportunity to comment on your letter. Please contact Pat McDonald, MCC’s
Compliance Officer at 202-521-7260, if you have further questions or concerns.

                                              Sincerely,

                                              /s/

                                              Daniel W. Yohannes
                                              Chief Executive Officer
                                              Millennium Challenge Corporation




                                             11
